rT

2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 19-930
CIC SERVICES, LLC,
Petitioner,
Vv.

INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PATRICK J.
SMITH AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5462 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of February, 2020,
] am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

Affiant

buss EbMite Qudiaw-h, ble

39512
